                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I03110067
                                                                              1            Page 1 of 1


                                                                                                  I

               An NSF program officer notified this office about a dispute between two scientists about
        the payment of summer support on an NSF grant. The Principal Investigator (PI) on the grant'
        refused to pay the collaborato? because the collaborator did not produce time records. The
        collaborator did produce a research paper and certified that he conducted the research agreed
        upon between the two scientists.

                The NSF program officer consulted with the Division of Grants and Agreements, who
        advised that this is a dispute that should be handled by the grantee3. The NSF program officer
        instructed the grantee that the research should be paid since the research was reported to NSF and
        the scientist produced the research paper and certified that he conducted the research.

              The PI then offered to pay the researcher one-half payment that was previously agreed
        upon. The scientist then notified the NSF Program Officer that he was not satisfied with this
        payment and asked for further NSF review.

                After reviewing communications fiom the PI, the other scientist, and the Program Officer,
        we concluded that, according to the information provided to date, the matter is a dispute between
        PI and the scientist and there is no issue for OIG to resolve.

                  Accordingly, this case is closed.

                            \




NSF OIG Fom 2 (11/02)
